     TERMINAL SERVICE
COST ACCOUNTING PRACTICES

  Federal Aviation Administration

   Report Number: FI-2003-013
  Date Issued: January 21, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Terminal Service                          Date:    January 21, 2003
           Cost Accounting Practices, FAA
           FI-2003-013
  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   Meche: x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Aviation Administrator

           This report is one in a series on implementation of the Federal Aviation
           Administration (FAA) cost accounting system. This report presents our audit
           results on cost accounting practices being implemented for the Terminal Service, a
           service within Air Traffic Services, which is one of five FAA lines of business.
           FAA's Terminal Service provides air traffic control services to aircraft arriving at
           and departing from airport facilities. As required by the Wendell H. Ford Aviation
           Investment and Reform Act for the 21st Century (AIR-21), we will be issuing a
           summary report in the near future assessing FAA's overall efforts in developing
           and implementing its cost accounting system.

           INTRODUCTION

           Terminal Service facilities include airport air traffic control towers, terminal radar
           approach control centers, and other types of facilities. FAA has 291 terminal and
           tower facilities, 194 contract towers where air traffic services are performed by
           private companies, and 1,118 terminal facilities without air traffic control services,
           such as radars and unmanned control facilities.

           An effective cost accounting system is fundamental to measuring the cost of FAA
           activities and provides the basis for setting benchmarks and measuring
           performance.     It represents the underpinning for FAA's operation as a
           performance-based organization through the development of good cost
           information for effective decisionmaking. FAA has spent about $38 million over
           the last 7 years developing its cost accounting system. Producing and reporting
                                                                                  2

accurate and reliable cost accounting information and using the information for
cost and performance management has been a difficult challenge for FAA.

The new FAA Administrator has a significant opportunity to overcome these
difficulties and implement an effective cost accounting system. Having good cost
information is more important now that FAA is facing critical issues involving
increasing capacity in the National Airspace System, carrying out cost-effective
and timely acquisitions, and improving business operations by controlling costs.
In essence, FAA needs to act more like a business, particularly in view of the steep
declines in projected Aviation Trust Fund revenues.

Our audit objectives were to evaluate the appropriateness of cost accounting
practices used for the assignment and allocation of costs to, and within, the
Terminal Service, and to ensure that costs were accurately reported in the cost
accounting system in accordance with applicable Federal accounting standards.

RESULTS IN BRIEF

FAA reported that implementation of its cost accounting system for the Terminal
Service was completed in Fiscal Year (FY) 2001. To determine the adequacy of
the cost accounting practices for the Terminal Service, we analyzed the FY 2001
costs because FAA would not report its final FY 2002 costs until calendar
year 2003. We verified that costs reported in the FAA cost accounting system
were the same as reported in the Department's financial accounting system.
However, we identified significant deficiencies with the cost accounting practices
for the Terminal Service. We found that FAA did not (1) report costs for each
facility location, (2) use appropriate cost assignment methods, and (3) allocate
overhead costs properly. Specifically,

   • FAA reported $2.4 billion of costs for the Terminal Service in FY 2001;
     however, about $1.3 billion was reported in lump-sum totals and not by
     individual facility as required. FAA cannot effectively manage its
     Terminal Service unless it knows the cost to operate individual facilities.

   • FAA distributed $203 million in costs, such as equipment acquisition cost,
     to the Terminal Service using cost assignment methods that are not in
     accordance with Federal accounting standards. Because FAA used
     inappropriate methods to assign cost, it could not determine if the assigned
     amounts were accurate. FAA needs to improve its source data collection
     methods and develop processes for assigning each activity's cost to
     individual facility locations to determine the actual cost of each facility.
                                                                                   3

   • FAA used an inappropriate method to assign FY 2001 overhead costs to the
     Terminal Service. FAA used total employee labor cost as its basis to assign
     overhead costs instead of the total cost of Air Traffic Services. If FAA had
     used total cost, it would have assigned about $38 million more overhead
     costs to the Terminal Service.

Air Traffic Services has facilities located throughout the United States and spends
about $7 billion for operating costs. However, FAA cannot effectively manage
such large operations unless it knows the actual cost of its activities and services
by location. A credible cost accounting system should track the cost of specific
activities and services so managers can make informed decisions, identify best
practices, set benchmarks, eliminate inefficiencies, and maximize efficiency.

To improve FAA's cost accounting system for its Terminal Service, we
recommended that FAA distribute its costs to each terminal facility location,
establish cost assignment bases that allocate costs using methods required by
Federal accounting standards, and allocate overhead cost pools using a total cost
basis. FAA concurred with our recommendation to allocate costs using methods
required by Federal accounting standards, and partially concurred with our
recommendations to distribute costs to each terminal location and to allocate
overhead costs. FAA estimates it will have the necessary accounting systems and
financial data to properly allocate and report its cost by September 30, 2004.

In its response to our draft report, FAA stated that it does not believe that the
nature of our audit results can substantiate the classification as "significant
deficiencies," and our reporting could falsely suggest that the cost accounting
system does not produce credible data. In a separate action, FAA's Air Traffic
Service recently decided to eliminate essential internal controls and requirements
to report time by specific activity from its Cru-X labor distribution system used to
track labor costs of about 8,700 air traffic controllers working in the Terminal
Service. When we brought this to her attention, the new FAA Administrator
directed that appropriate internal controls for recording time be incorporated into
the Cru-X system. FAA needs to identify specific action plans to implement the
Administrator's direction and provide milestones for starting and completing its
corrective actions.

The FAA cost accounting system reported $1.3 of $2.4 billion of Terminal Service
costs as lump-sum totals rather than by individual facilities, did not allocate costs
on appropriate bases, and used outdated FY 1999 and FY 2000 appropriation and
budget data to compute FY 2001 costs. In our view, not assigning and reporting
actual and current costs by facility represents a significant deficiency and impacts
the credibility of the reported data.
                                                                                  4

Over the years, FAA's efforts have reflected the lack of sufficient management
commitment to design and build a credible cost accounting system, as evidenced
by its continuing to push significant milestones further into the future for
implementing a fully compliant cost accounting system. We are requesting that
FAA reconsider its action plans and its implementation schedule.

In our view, FAA's response is symbolic of much larger issues. FAA will need
credible cost accounting and labor distribution systems to effectively operate as a
performance-based organization. Shortly, we will address these overall issues in a
separate report to the new FAA Administrator and Congress as part of our annual
assessment of FAA's cost accounting system and practices.

BACKGROUND

The Federal Aviation Reauthorization Act of 1996 (Act) requires FAA to develop
a cost accounting system that accurately reflects the asset values, operating and
overhead cost, and other financial measurement and reporting aspects of its
operations. The Statement of Federal Financial Accounting Standards (SFFAS)
Number 4, Managerial Cost Accounting Standards, also requires that Federal
entities establish managerial cost accounting practices, effective October 1, 1997.

The Federal Accounting Standards Advisory Board developed managerial cost
accounting standards for the Federal Government. These standards are basically
the same as used by private industry businesses for (1) setting budgets for
services; (2) establishing cost targets for controlling cost and measuring
performance; (3) computing cost targets for controlling cost and programs;
(4) evaluating programs; and (5) making business decisions. Congress and
Federal executives need accurate cost information on agencies' programs and
services to make decisions and allocate resources. Accurate cost accounting data
also alert Government managers to potential waste and inefficiency.

During FY 1997, FAA purchased commercial off-the-shelf software to design and
implement a cost accounting system in its individual lines of business. FAA is
designing its cost accounting system in phases. The cost accounting system was
originally scheduled to be implemented in October 1998 but now the schedule for
full implementation in all lines of business is September 2003.

The Wendell H. Ford Aviation Investment and Reform Act for the 21st Century
(AIR-21) requires that the Department of Transportation (DOT) Office of
Inspector General (OIG) perform an independent assessment of the adequacy and
accuracy of FAA's cost data and cost allocations. In conducting the assessment,
the OIG is to assess the reliability of source documents and the data collection
process; the system for tracking assets; the basis for establishing asset values and
                                                                                             5

depreciation rates; the indirect cost pools and allocation bases; and the progress
FAA is making in cost and performance management. AIR-21 also requires OIG
to submit a report to Congress no later than December 31, 2000, and every year
thereafter through 2004. Our audit work on the Terminal Service cost accounting
practices will be used to satisfy some OIG reporting requirements under AIR-21.

RESULTS

FAA did not report costs for all Terminal Service locations, use appropriate cost
assignment methods, and allocate its overhead costs properly. The details of our
results follow.

Costs Not Reported for Facility Locations
FAA reported $2.4 billion of costs for the Terminal Service in FY 2001.
However, about $1.3 billion of those costs were reported as lump-sum totals, not
by individual facility location as shown in Table 1.

                                   Table 1
       Costs Not Reported for Individual Facility Locations or Activities

                                       Facilities Not                          Percentage
                         Number         Reporting            Cost Not         of the Total
 Type of Activity           of             Cost            Individually         Terminal
      or Cost            Facilities    Individually         Reported          Service Cost
 FAA Air Traffic
 Control Terminals           291             240           $824 million*                34
 Contract Towers             194             194           $127 million                  5
 Non-controlled
 locations (no air
 traffic control)          1,118           1,118           $ 94 million                 4
 Equipment
 implementation            1,603           1,552           $115 million                 5
 Post-retirement
 employee benefits         1,603           1,552           $107 million                  4
 Depreciation              1,603           1,552           $ 56 million                  2
 Flight inspection         1,603           1,552           $ 15 million                  1
    Total                    -               -             $1.3 billion                 55
*FAA's system collects the cost by site, but does not report it by terminal facility.

Federal accounting standards require that FAA define and establish areas of
responsibility where managerial cost accounting can be performed. FAA has
identified its Terminal Service facility locations as areas of responsibility. To
                                                                                  6

effectively manage the Terminal Service, FAA needs to collect and report cost by
facility location to the greatest extent practical.

Specific cost information for each facility location is necessary for managers to
compare performance among Terminal Service locations. After several years of
developing its cost accounting system, FAA still is not reporting about $1.3 billion
of Terminal Service costs to its individual facilities. A credible cost accounting
system should track the cost of specific activities and report the costs by facility
location so managers can identify best practices, set benchmarks at facilities, and
make informed business decisions.

Inappropriate Cost Assignment Methods
FAA did not appropriately assign $203 million of FY 2001 costs in accordance
with Federal accounting standards. As a result, FAA could not accurately
determine the Terminal Service's appropriate share of the costs. FAA assigned the
$203 million of costs using appropriation and budgetary data rather than by using
an acceptable method of cost assignment, as shown in Table 2.
                                  Table 2
                Inappropriate Cost Assignment Methods Used

        Activity                     Basis Used                    Amount
 Equipment Acquisition      Funding/Obligations/Budgetary        $ 66 million
 Research, Engineering,
 and Development                Appropriation Funding            $ 22 million
 Gains and Losses           Direct Labor and Benefits Cost       $ 75 million
 Environmental Liability           Funding Amounts               $ 40 million
   Total                                   -                     $203 million

FAA needs to develop proper methods for assigning each activity's cost to facility
locations. In accordance with SFFAS Number 4, costs should be assigned through
the tracing of costs to activities or services, assignment of costs on a basis that
reflects the reason for the cost, or allocation of costs on a reasonable and
consistent basis according to Federal accounting standards. Appropriation and
budgetary data are not adequate allocation bases because they are estimates and
forecasts, not actual costs. Using budget data to allocate costs prevents managers
from making essential comparisons of variances between budgets and actual costs
and making improvements in operations. FAA needs to develop better source data
collection methods to trace costs to activities or services, or develop an adequate
allocation basis that reflects the reason for the cost.
                                                                                     7

Overhead Costs Not Properly Allocated
FAA used an allocation base of direct labor and benefits cost that is not
appropriate to allocate the administrative overhead cost pools to the Terminal
Service. Although we found that the Air Traffic Services headquarters, the Air
Traffic Operations, and the Airway Facilities Operations overhead pools had
properly collected general and administrative costs in compliance with Federal
accounting standards, FAA did not properly allocate these costs. Federal
accounting standards require that overhead costs be allocated using an appropriate
allocation base to ensure that costs are distributed properly.

In our opinion, the appropriate allocation base should be total cost because it better
represents the activity of the Terminal Service. For example, using a total cost
basis, FAA would have allocated about $232 million of overhead cost to the
Terminal Service, or $38 million more than by using the direct labor and benefit
cost basis. The direct labor and benefits cost basis understates the actual cost the
Terminal Service should receive based on its activities.

RECOMMENDATIONS

We recommend that FAA:

1. Distribute costs to each Terminal Service facility location and report the results
   to FAA management.

2. Change the cost accounting system to assign costs using an acceptable method
   as required by Federal accounting standards.

3. Allocate the Air Traffic Services headquarters, Air Traffic Operations, and
   Airway Facilities Operations administrative overhead cost pools using a total
   cost basis.

MANAGEMENT COMMENTS AND OIG RESPONSE

A draft of this report was provided to the FAA Administrator on
November 14, 2002. FAA concurred or partially concurred with each of our
recommendations. FAA's comments and our response follow.

FAA General Comment: FAA does not believe that the nature of the audit
results can substantiate the classification as "significant deficiencies." In addition,
reporting that the system has "significant deficiencies" could falsely suggest that
the cost accounting system does not produce credible data.
                                                                                     8

OIG Response: We disagree with FAA. The FAA cost accounting system
reported $1.3 of $2.4 billion of costs as lump-sum totals rather than by individual
facilities, did not allocate costs on appropriate bases, and used outdated FY 1999
and FY 2000 appropriation and budget data to compute FY 2001 costs. In our
view, not assigning and reporting actual and current costs by facility represents a
significant deficiency and impacts the credibility of the reported data.

Recommendation 1: FAA partially concurred. FAA currently distributes costs to
all FAA-staffed terminal facilities. Air Traffic Services (ATS) elected to initially
produce and distribute monthly cost reports for only the top 50 airports and a few
lower level facilities. FAA is currently in the process of implementing a new
reporting tool, the Report, Analysis and Distribution System (RADS), which will
provide ATS with access to reports for all FAA-staffed Terminal facilities.

FAA also is in the process of replacing the Departmental Accounting and
Financial Information System (DAFIS) with a new financial accounting system,
Delphi, which should increase the level of detail associated with financial
transactions. RADS also should enable ATS to readily obtain costs for any
FAA-staffed Terminal facility.

FAA will perform a study of any remaining service level costs to determine the
most logical, relevant and suitable cost assignment method and basis for reporting
the costs. FAA plans to complete the study by the end of FY 2003 and will
provide implementation dates by December 31, 2003.

OIG Response: Actions planned by FAA should improve the cost accounting
system and data. However, these improvements are limited to FAA staffed
facilities. FAA's reporting system must include the costs for all Terminal Service
facilities by location, including individual contract towers and facilities that do not
have air traffic control services, such as radars and unmanned control facilities.

We agree that Delphi should provide better detail for financial transactions.
However, FAA needs to ensure that Delphi is properly programmed to collect the
necessary level of detail so the cost accounting system can electronically retrieve
the data and allocate the cost in accordance with Federal accounting standards.
Consistent with proper implementation of Delphi, FAA also needs to ensure that
the Cru-X labor distribution system is developed with adequate internal controls
and time reporting categories so that FAA can use it to manage and allocate its air
traffic controller resources in an efficient and effective manner.

Recommendation 2: FAA concurred. FAA stated it used the best available
information as the bases for allocating costs to ATS services for cost accounting
implementation in the ATS Terminal Service and used a method in accordance
                                                                                  9

with Federal accounting standards. FAA used budgetary data because no other
data had a direct relationship with the cost pool and the data were available at the
necessary level of detail. After FAA implements Delphi, the cost accounting
system will be able to trace most costs directly to Terminal facilities. FAA will
review its current business processes, and where possible, develop or use more
reasonable data as bases when using the cost allocation method. FAA will provide
implementation dates by December 31, 2003.

OIG Response: Although FAA concurred with the recommendation, we do not
agree that it used the best available information nor did it use a method in
accordance with Federal accounting standards. FAA used FY 1999 and FY 2000
appropriation and budgetary data to compute the Terminal Service's FY 2001
costs. Not only did FAA use outdated information, but appropriation and
budgetary data are not reasonable allocation bases because they are estimates and
forecasts, not actual costs. FAA's plan to review its business processes and to
develop methods for accurate assignment of costs is appropriate.

Recommendation 3: FAA partially concurred. FAA excluded certain cost
elements, such as equipment acquisition cost, from the total cost allocation basis
used to allocate overhead cost to the Terminal Service. Using this method, FAA
would have assigned $33 million more in overhead costs to the Terminal Service
rather than the $38 million reflected in the draft report. According to FAA, the
use of total cost basis versus personnel costs and benefits merely shifts the amount
of overhead costs between ATS services. The total cost basis reduces overhead
cost allocated to Enroute and Flight Service Station services and increases the
amount assigned to Terminal services.

FAA believes that personnel costs and benefits represent a more consistent basis
for monthly ATS overhead allocations. FAA plans to wait until it implements
Delphi to make any changes to the ATS overhead allocation basis. FAA plans to
conduct analyses and implement appropriate changes by September 30, 2004.

OIG Response: In our opinion, all cost elements of Terminal Service facilities,
such as equipment acquisition costs, should be included in the total cost allocation
basis because these are costs of FAA operations. In addition, last year, in response
to a similar recommendation concerning flight service stations, FAA agreed that
by March 2002 it would analyze each FAA Headquarters administrative overhead
cost pool and determine the most appropriate base to use in allocating overhead
cost to lines of business. This did not happen. Now, FAA plans to analyze its
costs to determine the overall impact of converting from a personnel cost and
benefits base to a total cost base by September 30, 2004, or about 2½ years after
its original estimated completion date.
                                                                              10

Rather than fix the previously identified deficiencies, FAA continues to push
significant milestones further into the future for implementing a fully compliant
cost accounting system. FAA should complete its analysis before September 2004
to ensure the proper allocation of overhead costs among the Air Traffic Services.

ACTION REQUIRED

In accordance with DOT Order 8000.1C, we are requesting that FAA reconsider
its position and provide, within 30 days, specific action plans and estimated
completion dates to address our recommendations and the implementation
schedule for the cost accounting system. The complete text of management
comments is in the Appendix.

We appreciate the courtesies and cooperation of FAA representatives. If we can
answer any questions, please call me at (202) 366-1992 or John Meche at
(202) 366-1496.


                                       #
                                                                                 11


EXHIBIT A. SCOPE AND METHODOLOGY
We evaluated the reasonableness of the Terminal Service's cost accounting
practices for the assignment and allocation of cost. We evaluated and performed
detailed tests of the accuracy and validity of the allocations, and determined
whether costs were accurately reported for the Terminal Service in the cost
accounting system in accordance with Federal accounting standards. We also
verified that the costs in the Air Traffic Operations overhead cost pool reported in
the cost accounting system were the same as reported in the Department's financial
accounting system.

We evaluated the allocations of Terminal Service costs totaling $2.4 billion for
FY 2001.     The analyses we performed of internal controls provided an
understanding of the design of the internal controls, whether the internal controls
had been placed in operation, and whether they were sufficient to assess the
control risk associated with the Terminal Service portion of the cost accounting
system.

The scope of our examination reflects our assessment of control risk and includes
tests of compliance with applicable laws and regulations. Our assessment of
control risk reflects that we have not specifically examined all internal controls
that may be applicable to FAA's cost accounting system because the system still is
under development.

Our audit work on the Terminal Service's cost accounting practices was not an
audit of FAA's compliance with the overflight fee statute. Therefore, our audit
results should not be used as a basis to evaluate FAA's overflight fees.

We performed our audit from April through October 2002 at FAA headquarters in
Washington, D.C. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States.
                                                          12


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


      Name                              Title

   Keith Cosper                  Program Director
   Paul Barry                    Project Manager
   Michael Veverka               Senior Auditor
           APPENDIX. MANAGEMENT COMMENTS


                                                           Memorandum

Subject:   ACTION: Draft Report on Terminal Service Cost                Date:    December 4, 2002
           Accounting Practices, FAA

  From:    Assistant Administrator for Financial Services and        Reply to
             Chief Financial Officer                                 Attn. of:



    To:    Assistant Inspector General for Financial and
             Information Technology Audits

           We have attached to this memorandum our response to the subject Draft Audit Report.
           We concurred or partially concurred with all findings and recommendations, and
           indicated the specific actions that we plan to take for each recommendation and target
           dates for completion.

           You requested that we comment on the reasonableness of the $38 million related to the
           appropriate allocation of Air Traffic Service administrative overhead. We do not agree
           with all cost elements that you included in the total cost basis used for the allocation of
           the ATS overhead costs. Specifically we believe that the acquisition costs, gains and
           losses, imputed post retirements benefits, change in environmental liabilities and change
           in FECA actuarial liability should be excluded from the total cost basis. Based on our
           computation, the use of total cost basis versus personnel costs and benefits will result in
           an increase of $33 million of fiscal year 2001 Terminal service overhead costs.

           We appreciate the courtesy and professionalism of your audit staff. If you have any
           questions, please call Ray Morris at (202) 267-7580.




           Chris Bertram

           Attachment
                                                                                          14

 FAA RESPONSE TO OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
          TERMINAL SERVICE COST ACCOUNTING PRACTICES
                     PROJECT NO. 02F3001F000

                                   November 29, 2002

General Comments. We generally concur with the OIG recommendations on Terminal
Service Cost Accounting Practices. However, we believe the following changes to the
Draft Report will provide a fairer representation of the Terminal services cost accounting
practices.

Specific Comments. Our specific comments follow:

Page 1, Results in Brief section, first paragraph, fourth sentence:

OIG Draft Report: “However, we identified significant deficiencies with the cost
accounting practices for the Terminal Service.”

FAA Comment: The FAA does not believe that the nature of the audit results
documented in this report can substantiate their classification as “significant
deficiencies.” Our responses to the OIG recommendations will support our position. In
addition, reporting that the system has “significant deficiencies” could falsely suggest
that the CAS does not produce credible data. Therefore, we recommend the removal of
the word “significant” from the audit report.

Page 2, Results in Brief section, second bullet, first sentence:

OIG Draft Report: “FAA distributed $203 million in costs, such as equipment
acquisition cost, to the Terminal service using cost assignment methods that are not in
accordance with Federal Accounting Standards.”

FAA Comment: FAA used “allocation on a reasonable and consistent basis” as the
method to assign selected ATS costs to the Terminal service. This method is in
accordance with Federal Accounting Standards. The report confused the allocation
method with the basis for making the allocations. While the report took issue with the
method, in fact the OIG questioned the appropriateness of the basis used to make
allocations. In determining the basis, the FAA used the best data available. We believe
that the OIG should eliminate the reference to “not in accordance with Federal
Accounting Standards.” The report should state, “For distribution of $203 million in
costs, such as equipment acquisition cost, to the Terminal service, FAA did not use the
most relevant bases.”
                                                                                         15

Page 2, Results in Brief section, third bullet, first two sentences:

OIG Draft Report: “FAA used an inappropriate method to assign FY 2001 overhead
costs to the Terminal Service. FAA used total employee labor cost as its basis to assign
overhead costs instead of total cost of Air Traffic Services.”
FAA Comment: FAA believes that using labor versus total costs, as the basis to allocate
the ATS overhead costs to ATS services is an appropriate method. Again, the report
confused the allocation method with the basis for making the allocations. While the
report took issue with the method, in fact the OIG questioned the appropriateness of the
basis used to make allocations. We recommend the removal of the first sentence and the
revision of this section as follows: “To assign the FY 2001 overhead costs to the
Terminal Service, FAA used total employee labor cost as its basis to assign overhead
costs instead of total cost of Air Traffic Services.”

OIG Recommendations.

OIG Recommendation: Distribute costs to each Terminal Service facility location and
report the results to FAA management.

FAA Response: Partially Concur.
Air Traffic Control (ATC) Terminals. FAA currently distributes costs to all FAA-staffed
terminal facilities. In accordance with ATS management direction, ATS elected to
initially produce and distribute monthly cost reports for only the top 50 airports and a few
lower level facilities (for system validation purposes only). Please note that a quick ad-
hoc query can provide cost data for any FAA-staffed Terminal facility. FAA is currently,
in the process of implementing a new reporting tool. This tool is the Report, Analysis
and Distribution System (RADS). ATS will soon have FAA-wide access to RADS. This
will eliminate the need for specific query requests, and will provide ATS with access to
monthly reports for all FAA-staffed Terminal facilities. The finding on ATC Terminals
represents $824 million (63 percent) of the $1.3 billion that the OIG categorized as costs
not individually reported.
Contract Towers. The contract tower program manager uses contractual data to centrally
manage contract tower costs. The financial system records these costs at an aggregate
level. However, the CAS provides additional level of details and distributes costs to
contract towers at the regional level. The finding on contract towers represents
$127million (9 percent) of the $1.3 billion that the OIG categorized as costs not
individually reported.
Non-controlled locations. At non-towered locations (without FAA paid controllers) FAA
maintains equipment. The standard ATS cost reports aggregate all costs related to
equipment maintenance at non-towered locations into one SDP. However, ATS
management is interested in the cost to maintain equipment at each site. The “site” data
element is associated with all transactions and as a result the cost to maintain individual
systems is available in a site report. The finding on non-controlled locations represents
                                                                                         16

$94 million (7 percent) of the $1.3 billion that the OIG categorized as costs not
individually reported.
Other. FAA distributes some costs at the service level only. These cost include those
that do not have enough detail to permit their assignment to SDPs; and those that ATS
decided to report at the service level because of the nature of the cost. The finding on
other costs represents $293 million (approximately 22 percent) of the $1.3 billion that the
OIG categorized as costs not individually reported.

FAA is in the process of replacing the Departmental Accounting and Financial
Information System (DAFIS) with a new financial system, DELPHI. DELPHI will
increase the level of detail associated with financial transactions. Users will be able to
directly assign most costs to SDPs. Further, as indicated above, RADS will enable ATS
to readily obtain costs for any FAA-staffed Terminal facility. In addition, FAA will
perform a study of any remaining service level costs to determine the most logical,
relevant and suitable cost assignment method and basis for reporting the costs at the SDP
level.

We plan to complete the study by the end of Fiscal Year (FY) 2003 and implement
appropriate changes at a later date. We will schedule the implementation dates based on
the results of the study, and provide them to the OIG by December 31, 2003.

OIG Recommendation: Change the cost accounting system to assign costs using an
acceptable method as required by Federal accounting standards.

FAA Response: Concur. FAA used the best available information as the bases for
allocating costs to ATS services for cost accounting implementation in the ATS Terminal
Service. FAA used budgetary data as the basis for allocating $128 million (63 percent) of
the $203 million that the OIG identified as not appropriately assigned. No other data had
a direct relationship with the cost pool and was available at the necessary level of detail.
For the remaining amount of $75 million (37percent) representing gains and losses, FAA
used personnel costs and benefits as the allocation basis. We believe that after the FAA
implements DELPHI, the CAS will be able to trace most costs directly to Terminal
facilities. In addition, FAA will review its current business processes, and where possible
develop and/or use more reasonable data as bases when using the cost allocation method.

We plan to complete the review by the end of Fiscal Year (FY) 2003 and implement
appropriate changes at a later date. We will schedule the implementation dates based on
the results of the study, and provide them to the OIG by December 31, 2003.

OIG Recommendation: Allocate the Air Traffic Service headquarters, Air Traffic
Operations, and Airway Facilities Operations administrative overhead cost pools using a
total cost basis.

FAA Response: Partially Concur. The use of total cost basis versus personnel costs and
benefits merely shifts the amount of overhead costs between ATS services. The total
                                                                                      17

cost basis reduces overhead cost allocated to Enroute and Flight Service Station services
and increases the amount assigned to Terminal services. FAA processes various year-
end adjusting entries that affect the expense and property, plant and equipment accounts.
Therefore, we believe that PC&B represents a more consistent basis for ATS overhead
allocation in producing monthly ATS cost reports. Since DELPHI, will require routine
posting of capitalized costs, we plan to wait until FAA implements DELPHI to make any
changes to the ATS overhead allocation basis. Once we have DELPHI data for a
complete year, including year-end adjustments, we will analyze the overall impact of
converting from a PC&B basis to a total cost basis and make changes as warranted.

We plan to implement appropriate changes by the end of FY 2004.
